PROOF OF SERVICE
I

do

July 28,

swear

or

declare

that

on

this

date,

2021, as required by Supreme Court Rule 29 I have served the

enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days. The names and
addresses of those served are as follows: Wells Fargo Bank, Nicholas Pacumio, Branch
Manager,
Attorney For Defendants: Evelina Manukvan. One Embarcadero Center. Suite 2600.
San Frannisr.n Halifornifl Q4111

Executed on Wednesday, 28th Day of JULY ; 2021

16

